  NATIONAL CREDIT UNION ADMINISTRATION




             OFFICE OF THE INSPECTOR GENERAL

                    REPORT TO CONGRESS

                   October 1, 2000 – March 31, 2001




                      THE NCUA MISSION

 OUR CHARGE IS TO FOSTER THE SAFETY AND SOUNDNESS OF FEDERALLY
  INSURED CREDIT UNIONS AND TO BETTER ENABLE THE CREDIT UNION
   COMMUNITY TO EXTEND CREDIT FOR PRODUCTIVE AND PROVIDENT
PURPOSES TO ALL AMERICANS, PARTICULARLY THOSE OF MODEST MEANS.

 WE STRIVE TO ENSURE THAT CREDIT UNIONS ARE ENPOWERED TO MAKE
  THE NECESSARY BUSINESS DECISIONS TO SERVE THE DIVERSE NEEDS OF
THEIR MEMBERS AND POTENTIAL MEMBERS. WE DO THIS BY ESTABLISHING
    A REGULATORY ENVIRONMENT THAT ENCOURAGES INNOVATION,
FLEXIBILITY, AND CONTINUED FOCUS ON ATTRACTING NEW MEMBERS AND
              IMPROVING SERVICE TO EXISTING MEMBERS



         THE OFFICE OF INSPECTOR GENERAL MISSION

      TO PROMOTE ECONOMY, EFFICIENCY, AND EFFECTIVENESS
               IN NCUA PROGRAMS AND OPERATIONS,
     AS WELL AS PREVENT AND DETECT FRAUD, WASTE, AND ABUSE
                   INDEX OF REPORTING REQUIREMENTS

                  OFFICE OF THE INSPECTOR GENERAL
                NATIONAL CREDIT UNION ADMINISTRATION


SECTION                      DATA REQUIRED                       RESPONSE   PAGE REF
 4(a)(2)   Review of Legislation and Regulations                               14
 5(a)(1)   Significant Problems, Abuses, or Deficiencies                        9
           relating to the administration of programs and
           operations disclosed during the reporting period.
 5(a)(3)   Recommendations with Respect to Significant                         9
           Problems, Abuses, or Deficiencies.
           Significant Recommendations Described in Previous
 5(a)(3)   Semiannual Reports on Which Corrective Action Has       None
           Not Been Completed.
 5(a)(4)   Summary of Matters Referred to Prosecution
           Authorities and Prosecutions, Which Have Resulted.      None
           Summary of Each Report to the Board Detailing
 5(a)(5)   Cases Where Access to All Records Was Not               None
           Provided or Where Information Was Refused.
 5(a)(6)   List of Audit Reports Issued During the Reporting                   18
           Period.
 5(a)(7)   Summary of Particularly Significant Reports.                         9
           Statistical Tables on Audit Reports With Questioned                 16
 5(a)(8)   Costs.
 5(a)(9)   Statistical Tables on Audit Reports With                            17
           Recommendations That Funds Be Put To Better Use.
5(a)(10)   Summary of Each Audit Report Issued Before the          None
           Start of the Reporting Period for Which No
           Management Decision Has Been Made by the End of
           the Reporting Period.
5(a)(11)   Description and Explanation of Reasons for any          None
           Significant Revised Management Decision Made
           During the Reporting Period.
5(a)(12)   Information Concerning Significant Management           None
           Decisions With Which the Inspector General is in
           Disagreement.
Inspector General’s Semiannual Report                    National Credit Union Administration


         INSPECTOR GENERAL'S MESSAGE TO THE CONGRESS

During this period, the Office of Inspector General (OIG) focused its efforts on two high profile
issues: (1) a security and control audit of the National Credit Union Administration’s (NCUA)
financial system, SAP R/3 (SAP); and (2) an ongoing investigation involving allegations of
criminal and administrative wrongdoing against two senior agency officials. Both matters
garnered the intense interest of employees of all levels within the NCUA, from two perspectives,
respectively. First, the OIG’s role in promoting systems security within the NCUA has in turn
helped the agency take a more proactive role in managing risk and strengthening systems
security. Second, with regard to the OIG’s investigation into allegations of misconduct
involving two senior level officials, the OIG has completed its investigation and issued part one
of a two-part Report of Investigation. We intend to report fully on the completed investigation,
findings, and recommendations in our next Semi- Annual Report.

The OIG intends to continue its mandate to help promote systems security at NCUA. The OIG
recognizes that one of the most critical mandates for information system managers is to ensure
systems integrity. As such, we have an important role in identifying potential as well as existing
problems, both one-time and systemic. Moreover, the OIG will continue to pursue investigations
of misconduct by agency employees and to actively provide the high level of public
accountability necessary to instill public confidence within the greater credit union community.

AUDIT HIGHLIGHTS

Information security issues were the focus of OIG audit activity during the past reporting period.
The OIG audit staff issued a comprehensive report on the security and internal controls of
NCUA’s financial reporting system, SAP. This report made over 40 recommendations for
rectifying security weaknesses which could lead to unauthorized, undetected access to financial
and employee data. In addition, the financial audit report for the year ending December 31,
2000, presented a number of information security observations and recommendations addressing
Windows NT security; SAP information technology controls; and network connectivity.


INVESTIGATIVE HIGHLIGHTS

During the reporting period, the Office of Investigations (OI) initiated three (3) new
investigations and closed five (5) additional matters.

The OI issued the first of two reports on its investigation into allegations of criminal and
administrative misconduct against two senior NCUA officials. The first report concerned the
criminal phase of the investigation. Although the report found that no criminal wrongdoing had
occurred, one senior official was found to have violated standards of ethical conduct. With
regard to the second phase of the investigation, involving administrative allegations of
discrimination, preferential treatment, gross mismanagement, and abuse of authority against the




                                                 i
Inspector General’s Semiannual Report                    National Credit Union Administration


same two senior officials, the OIG completed its investigation and is in the process of finalizing
the second of two reports. Moreover, the OI closed and reported on two investigations
involving, respectively, misuse of a government contractor- issued credit card and false claims for
sick leave and Office of Worker’s Compensation Continuation of Pay bene fits.

During this period the OI responded to Freedom of Information Act (FOIA) and Privacy Act
(PA) requests in connection with the combined criminal/administrative investigation just
described. The OI further coordinated with the Office of General Counsel on the latter’s
response to FOIA and PA requests stemming from the same matter.

FUTURE PLANS

As mentioned above, the NCUA OIG plans to emphasize information security in accordance
with requirements and obligations of OIGs under the recently passed Government Information
Security Act. Our audit staff will also continue to focus on agency strategic planning and
reporting activities required by the Results Act. In addition, auditors will perform more
management consulting reviews at the regional office level.

On the investigative side, the OI will continue its efforts to educate agency employees
concerning the investigative jurisdiction of the OIG, focusing on misconduct by employees. In
connection with the pending combined criminal/administrative investigation--for which the OIG
is currently finalizing its second of two reports--we intend to continue our oversight of the matter
to ensure that the identities of the numerous employees who cooperated with the OIG remain
confidential and that they are protected from reprisal.




                                                      Frank Thomas
                                                      Inspector General




                                                 ii
Inspector General’s Semiannual Report                                         National Credit Union Administration


                                            TABLE OF CONTENTS


INDEX OF REPORTING                                                                                                 inside
REQUIREMENTS...............................................................................................         front
                                                                                                                   cover


INSPECTOR GENERAL'S MESSAGE TO CONGRESS..............................                                                i


NATIONAL CREDIT UNION ADMINISTRATION......................................                                           1


     NCUA Highlights..........................................................................................       4


      Federally Insured Credit Union Highlights...................................................                   5


      Legislative Highlights....................................................................................     6


OFFICE OF THE INSPECTOR GENERAL...................................................                                   8


AUDIT ACTIVITY.............................................................................................          9


INVESTIGATION ACTIVITY...........................................................................                   12


LEGISLATIVE AND REGULATORY REVIEWS.........................................                                         14


OTHER INSPECTOR GENERAL ACTIVITIES..............................................                                    15


TABLE I – REPORTS WITH QUESTIONED COSTS..................................                                           16


TABLE II – REPORTS WITH RECOMMENDATIONS                                                                             17
          THAT FUNDS BE PUT TO BETTER USE................................


TABLE III – SUMMARY OF OIG ACTIVITY..............................................                                   18
Inspector General’s Semiannual Report               National Credit Union Administration


         NATIONAL CREDIT UNION ADMINISTRATION


T
       he National Credit Union Administration (NCUA) was established as an
       independent, federal regulatory agency on March 10, 1970. The agency is
       responsible for chartering, examining, supervising, and insuring federal credit
       unions. It also insures state-chartered credit unions that have applied for insurance
and have met National Credit Union Share Insurance requirements. NCUA is funded
entirely by credit unions; it does not receive any tax dollars. As of December 31, 2000,
the NCUA was supervising and insuring 6,336 Federal credit unions and insuring 3,980
state-chartered credit unions, a total of 10,316 institutions. This represents a loss of 230
Federal and 82 State chartered institutions since late 1999, for a total loss of 312 credit
unions nation-wide.

NCUA operates under the direction of a Board composed of three members. Board
members are appointed by the President and confirmed by the Senate. They serve six-
year terms. Terms are staggered, so that one term expires every two years. The Board is
responsible for the management of the National Credit Union Administration, the NCUA
Share Insurance Fund, the Central Liquidity Facility, and the Community Development
Revolving Loan Program.

The National Credit Union Administration executes its program through its central office
in Alexandria, Virginia and regional offices in Albany, New York; Alexandria, Virginia;
Atlanta, Georgia; Lisle, Illinois; Austin, Texas; and Concord, California. NCUA also
operates the Asset Management and Assistance Center (AMAC) in Austin, Texas. Please
refer to the NCUA organizational chart on page 3.

The NCUA Board adopted its 2001 budget on November 16, 2000. The final revised
2001 budget of $140,568,580 represents an increase of $5.6 million over the 2000
budget. The Full Time Equivalent (FTE) staffing authorization for 2001 is 1,028, a
reduction of 21 positions over the 2000 total of 1,049.




                                                 2001        2000       Difference
           LOCATION                              FTE         FTE           FTE
           Headquarters                           237         236            1
           Regional Offices                       173         173            -
           Field Examiners                        618         640          <22>
            Total Positions Authorized           1028        1049          <21>




                                             1
Inspector General’s Semiannual Report            National Credit Union Administration




           160,000

           140,000

           120,000

           100,000

            80,000                                                  Budget
            60,000

            40,000

            20,000

                0
                     1996   1997   1998   1999    2000   2001




              1060

              1040

              1020

              1000

               980                                                  FTEs
               960

               940

               920

               900
                     1996   1997   1998   1999    2000   2001




                                          2
Inspector General’s Semiannual Report                                    National Credit Union Administration



                            NCUA ORGANIZATION CHART


                                                       -NCUA BOARD-
                                                         CHAIRMAN


                                  OFFICE OF INSPECTOR                OFFICE OFCOMMUNITY
                                        GENERAL                       DEV. CREDIT UNIONS

                                         GENERAL                         NCUA BOARD
                                         COUNSEL                           STAFF


                            CENTRAL                      EXECUTIVE            REGIONAL
                            OFFICES                                           OFFICES
                                                         DIRECTOR


       OFFICE OF                       OFFICE OF                         REGION I             REGION II
    GENERAL COUNSEL             EXAMINATION & INSURANCE                 ALBANY, NY         ALEXANDRIA, VA


       OFFICE OF THE                     OFFICE OF                       REGION III          REGION IV
CHIEF INFORMATION OFFICER             CORPORATE CREDIT                  ATLANTA, GA           LISLE, IL
                                          UNIONS

      OFFICE OF                       OFFICE OF THE                      REGION V            REGION VI
   HUMAN RESOURCES               CHIEF FINANCIAL OFFICER                 AUSTIN, TX         CONCORD, CA


       OFFICE OF                       OFFICE OF                  ASSET MANAGEMENT &
     ADMINISTRATION               INVESTMENT SERVICES              ASSISTANCE CENTER
                                                                        AUSTIN, TX


   OFFICE OF PUBLIC &                 OFFICE OF TRAINING &
  CONGRESSIONAL AFFAIRS                  DEVELOPMENT




                                                              3
Inspector General’s Semiannual Report             National Credit Union Administration



                             NCUA HIGHLIGHTS

DOLLAR NAMED ACTING CHAIRMAN BY PRESIDENT BUSH

Shortly after taking office, President George W. Bush appointed Dennis Dollar Acting
Chairman of the NCUA Board, effective February 8, 2001. Mr. Dollar has been the
single Republican member of the NCUA Board since October 9, 1997.

WHEAT HONORED WITH CHAIRMANSHIP

In a broad sweep of final appointments, President Clinton named Yolanda Wheat to the
NCUA Board Chairmanship on January 5, 2001. Wheat held the NCUA Chair position
for approximately one month, at which time President Bush appointed Dennis Dollar
Acting NCUA Chairman.

BACINO APPOINTED TO NCUA BOARD

President Bill Clinton named Geoff Bacino to the NCUA Board in a recess appointment
effective December 29, 2000, filling the seat held by Chairman Norman D’Amours,
whose term expired August 2, 1999. President Clinton originally nominated Mr. Bacino
for a seat on the NCUA Board on July 24, 2000. Mr. Bacino was sworn in on January 2,
2001.

SKILES NAMED EXECUTIVE DIRECTOR

The NCUA Board, on February 15, 2001, named J. Leonard Skiles executive director of
NCUA. As executive director, Skiles is responsible for the day-to-day operation of the
agency. Skiles began his career with NCUA in 1973 as a staff attorney in the Office of
General Counsel. Prior to assuming the executive director post, Skiles served--since
March 1999--as the director of NCUA’s Austin regional office.

E&I’S NEW PROGRAM FOR IT SECURITY REVIEWS OF CREDIT UNIONS

NCUA’s Office of Examination and Insurance recently issued a new Instruction that
provides guidance on NCUA’s Information Systems & Technology Safety & Soundness
Examination Program. Specifically, the Instruction sets forth a revised examination
program for NCUA staff to (1) review credit union information systems and technology;
(2) ensure that credit unions understand the risks inherent in electronic commerce and the
measures needed to mitigate those risks; and (3) evaluate credit union management with
regard to electronic financial services.




                                            4
Inspector General’s Semiannual Report             National Credit Union Administration




FEDERALLY INSURED CREDIT UNION HIGHLIGHTS
       redit unions submit semiannual call reports (financial statement data) to NCUA.

C      An NCUA staff assessment of the December 31, 2000, semi-annual call reports
       submitted by all federally insured credit unions found that virtually all key
       financial indicators finished the year very strongly.

CREDIT UNIONS SHOWED MARKED LOAN GROWTH IN 2000

Lending grew 11 percent and shares grew 6.3 percent in 2000 according to preliminary
data from year-end call reports submitted by the nations 10,316 federally insured credit
unions.

Every category of lending saw positive growth in 2000. New and used auto loans grew
15.5 and 10.1 percent, respectively. New automobile loans increased from $52.4 to $60.6
billion, outpacing used automobile loans for the first time in many years. The largest
category of loans, first mortgage real estate loans grew 7.7 percent while other types of
real estate loans grew a remarkable 21.5 percent.

KEY FINANCIAL INDICATORS FINISH STRONG

Looking at preliminary year-end statistics for major balance sheet items and key ratios
shows: Assets grew 6.5 percent, up from $411.4 to $438.2 billion; Loans grew 11
percent, up from $271.5 to $301.3 billion; Savings grew 6.3 percent, up from $356.9 to
$379.2 billion; Regular reserves grew 9.5 percent, up from $13.6 to $14.9 billion; Net
income increased 16.2 percent, up from $3.7 to $4.3 billion; Delinquency ratio remains at
its 1999 established historic low 0.7 percent; and Membership increased 2.9 percent, up
from 75.4 to 77.6 million people.

EXCEPT FOR REGULAR SHARES, SAVINGS ALSO INCREASED IN 2000

While regular shares declined 2.2 percent, down from $134 to $131 billion, share
certificates increased 17.1 percent, up from $89.7 to $105 billion. Share drafts grew 13.1
percent, up from $44.8 to $50.6 billion and money market shares grew 6.5 percent, up
from $47.4 to $50.5 billion.

ELECTRONIC FINANCIAL SERVICES

The number of credit unions offering web site access increased 34.6 percent to 3,807
credit unions during 2000. An additional 5,953 credit unions are accessible by E- mail.




                                            5
Inspector General’s Semiannual Report              National Credit Union Administration




                       LEGISLATIVE HIGHLIGHTS




GOVERNMENT INFORMATION SECURITY REFORM ACT SIGNED

On October 30, 2000, President Clinton signed into law the Government Information
Security Reform Act. The Act requires, among other things, agency Chief Information
Officers to develop and implement security programs, which must undergo annual
evaluation by the agency’s IG and be subject to the approval of the Office of
Management and Budget. Specifically, agencies are required under the new law to
“identify and afford security protection commensurate with the risk and magnitude of the
harm resulting from the loss, misuse, or unauthorized access to or modification of
information collected or maintained by or on behalf of an agency.”

FAITH-BASED LENDING BILL GOES BEFORE CONGRESS

Congress is considering legislation that would make it easier for credit unions to lend to
religious organizations. The Faith-Based Lending Protection Act, which was re-
introduced by Rep. Ed Royce (R-Calif.) in January 2001, would exempt loans made by
credit unions to non-profit religious organizations from the 12.25 percent-of-assets cap
that Congress imposed on a credit union’s portfolio in a previous bill.

CENTRAL LIQUIDITY FUND BORROWING CAP RAISED

On October 27, 2000, the White House signed the VA-HUD and Independent Agencies
Appropriations bill for fiscal year 2001. It includes a borrowing ceiling of $1.5 billion
for the CLF facility for new loans to credit unions.

ADDITIONAL $1 MILLION FOR THE COMMUNITY DEVELOPMENT
CREDIT UNION REVOLVING LOAN FUND

Also included in the VA-HUD bill is an appropriation of an additional $1 million for the
CDCU Revolving Loan Fund, $650,000 for loans and $350,000 for technical assistance
grants. This is the first time Congress specifically appropriated funds for grants.




                                             6
Inspector General’s Semiannual Report              National Credit Union Administration




DEFENSE CREDIT UNIONS LAND LEASES

Congress approved a bill that includes a proposal for ensuring on-base credit unions the
ability to continue leasing federal facilities at minimal or no cost. The measure, included
in the FY2001 defense authorization legislation, revises a 1991 law that implemented
“fair market value” rents--a provision that threatened to sharply raise land rents for some
credit unions operating on U.S. military installations. Now, military departments may
recognize construction of facilities on leased land as an “in kind” contribution toward the
lease value.


MISCELLANEOUS LEGISLATIVE UPDATE

Bankruptcy Reform: While it didn’t get enacted into law, Congress at the end of 2000
reached final agreement on bankruptcy reform--an agreement that could set the stage for
easier passage of a reform measure in the current session.

Predatory Lending : Legislation proposed to define and set penalties for “predatory”
loan practices was proposed but never passed out of committee.

Consumer Privacy: More legislation is expected in 2001 on the confidentiality of
consumer information.




                                             7
Inspector General’s Semiannual Report                        National Credit Union Administration



               OFFICE OF THE INSPECTOR GENERAL


T      he Office of the Inspector General was established at the NCUA in 1989 under the
       authority of the Inspector General Act of 1978, as amended in 1988. The staff
       consists of the Inspector General, an Assistant Inspector General for
Investigations/Counsel, a Senior Special Agent, an Assistant Inspector General for
Audits, two Senior Auditors, a Senior Information Technology Auditor and an Office
Administrator.

The Inspector General reports to, and is under the general supervision of, the NCUA
Board. The Inspector General is responsible for:

1. Conducting, supervising, and coordinating audits and investigations of all NCUA
   programs and operations;

2. Reviewing policies and procedures to ensure efficient and economic operations as
   well as preventing and detecting fraud, waste, and abuse;

3. Reviewing existing and proposed legislation and regulations to evaluate their impact
   on the economic and efficient administration of agency programs; and

4. Keeping the NCUA Board and the Congress apprised of significant findings and
   recommendations.



                                                 FRANK THOMAS
                                              INSPECTOR GENERAL


          WILLIAM DESARNO                 SHARON SEPAR, LEGAL COUNSEL/           LINDA QUEEN
    ASSISTANT INSPECTOR GENERAL           ASSISTANT INSPECTOR GENERAL       OFFICE ADMINISTRATOR
             FOR AUDITS                        FOR INVESTIGATIONS


           CHARLES FUNDERBURK, CPA                   ANNE K. VOEGELE
               SENIOR AUDITOR                      SENIOR SPECIAL AGENT

             DWIGHT ENGELRUP, CPA
                SENIOR AUDITOR

               TAMMY RAPP, CPA
      SR INFORMATION TECHNOLOGY AUDITOR




                                                     8
Inspector General’s Semiannual Report                National Credit Union Administration



                                 AUDIT ACTIVITY

AUDIT REPORTS ISSUED


SAP Security and Control Review
OIG-01-01 March 15, 2001

NCUA’s financial system, SAP, is used to primarily perform online payment and
accounting of agency financial transactions. The purpose of our review was to access
controls and recommend corrections for any deficiencies.

Our review identified several internal control weaknesses in the SAP security
configuration. Because SAP is utilized to process financial accounting information
including Purchasing, Accounts Payable, Accounts Receivable, General Ledger and
Human Resources, security breaches in this area could lead to unauthorized, undetected
access to confidential financial and employee data. The most significant findings were:

   •   Duties within the purchasing process have not been adequately segregated. As a
       result, personnel could possibly gain control of the entire purchasing cycle,
       resulting in errors, irregularities or fraud.

   •   A large number of users have been granted inappropriate authorities in the
       Financial Accounting and Controlling modules.

We reported that NCUA should take immediate action to conduct a thorough review of
user access in order to ensure that user access is appropriately restricted and that
incompatible duties are segregated. NCUA’s consolidated response to the report’s 42
recommendations was extremely positive. NCUA has either implemented or agreed to
implement all of the report’s recommendations.

The content of this report is restricted to official use only in order to protect the sensitive
nature of the specific control weaknesses identified.

NCUA Financial Statement Audits, dated March 31, 2001

Our contract accounting firm, Deloitte & Touche, issued opinions on the 2000 financial
statements of the National Credit Union Administration Operating Fund, National Credit
Union Share Insurance Fund, the Central Liquidity Facility, and the Community
Development Revolving Loan Program. The auditors found that the financial statements
presented fairly the financial position of the agency’s funds as of December 31, 2000.
The firm issued its opinions on February 16, 2001.




                                               9
Inspector General’s Semiannual Report             National Credit Union Administration


The NCUA Operating Fund (OIG-01-02) was established as a revolving fund managed
by the NCUA Board for the purpose of providing administration and service to the
federal credit union system. The auditors issued an unqualified opinion on the
Operating Fund’s financial statements. The Fund’s total assets for 2000 were $53.4
million down from $54.6 million in 1999.

The National Credit Union Share Insurance Fund (OIG-01-03) was established as a
revolving fund managed by the NCUA Board to insure member share deposits in all
Federal credit unions and qualifying state credit unions up to $100,000 per shareholder
account. The auditors issued an unqualified opinion on the Share Insurance Fund’s
financial statements. The Fund’s total assets for 2000 were $4.7 billion, up from $4.3
billion in 1999.

The Central Liquidity Facility (OIG-01-04) was established, as a mixed ownership
government corporation managed by the NCUA Board to improve general financial
stability by meeting the liquidity needs of credit unions. The auditors issued an
unqualified opinion on the CLF’s financial statements. The CLF’s total assets for 2000
were $932 million down from $1,962 million in 1999.

The Community Development Revolving Loan Program’s (OIG-01-05) purpose is to
stimulate economic activities in the communities served by low-income credit unions.
This in turn, will result in increased income, ownership and employment opportunities for
low-wealth residents and other economic growth. The auditors issued an unqualified
opinion on the Program’s financial statements. The CDRLP’s total assets for 2000 were
$11.7 million--the same as in 1999.

The financial auditors did not find any matters considered to be material weaknesses in
their review of the Fund’s internal control structures pertinent to financial reporting.
However, during the performance of the audit, several observations and
recommendations were presented relating to SAP security and control weaknesses;
Windows NT security; SAP information technology controls; network connectivity;
employee relocation advances; and CDRLP loans.

AUDITS IN PROGRESS

Results Act: Review of Selected Performance Measures

The Government Performance and Results Act of 1993 (Results Act) seeks to improve
the effectiveness, efficiency, and accountability of federal programs by requiring federal
agencies to set goals for program performance and to report on annual performance
compared with the goals. Natural person and corporate credit unions periodically report
financial status to NCUA using call report forms 5300 and 5310 respectively. NCUA has
identified the call reports as key data sources to measure progress in meeting a number of
agency strategic goals. The OIG review objective is to evaluate and determine the
reliability of credit union call report (forms 5300 and 5310) information identified as




                                           10
Inspector General’s Semiannual Report              National Credit Union Administration


Results Act performance measurements. The review scope is limited to the Results Act;
the agency strategic plan and annual plans for 1999 and 2000; and the agency 1999
performance report to the Office of Management and Budget.

Review of Several Issues Related to the Acquisition and Roll-Out of
Compaq Notebook Computers and Windows 2000

The audit staff is in the process of reviewing several issues related to the procurement of
Compaq notebook computers and migration to the Windows 2000 operating system.
Review objectives are to determine: (1) what methodology was used to acquire new
computers and Windows 2000 and whether this methodology was followed; and (2) if the
agency was exposed to unreasonable risks by implementing a new operating system
platform before it was commercially available. We anticipate issuing this report in
Spring 2001.

NCUA Budget Process

We had begun preliminary planning on a review of the NCUA budget process but this
review was suspended because of higher priority commitments. Once this review is
resumed, we will evaluate the budget process to see if it can be improved to provide more
useful and reliable information to the NCUA Board. Specific objectives include how
well the NCUA budget accounts for the cost of meeting each of the agency’s strategic
goals; and how well the events leading up to approval of the NCUA budget are
effectively planned.




                                            11
Inspector General’s Semiannual Report            National Credit Union Administration



                       INVESTIGATIVE ACTIVITY
      n accordance with professional standards and guidelines established by

 I    the Department of Justice, the Office of Investigations performs
      investigations of both criminal and administrative wrongdoing involving
      agency programs. Our investigative jurisdiction focuses on activities
designed to promote economy, effectiveness, and efficiency, as well as
fighting fraud, waste, and abuse in agency programs. In addition to our
proactive efforts to deter misconduct and promote integrity awareness among agency
employees, we investigate referrals and direct reports of employee misconduct.
Investigations may involve possible violations of regulations regarding employee
responsibilities and conduct, Federal criminal law, and other statutes and regulations
pertaining to the activities of NCUA employees. Investigative findings may lead to
criminal prosecution, civil prosecution, or administrative action.

Moreover, we receive complaints from credit union members that involve NCUA
employee program responsibilities. These complaints are examined to determine whether
there is any allegation of NCUA employee misconduct. If not, the complaint is referred
to the appropriate regional office for response, or closed if contact with the regional
office indicates that the complaint has already been appropriately handled.


                     Investigative Operations


                         Contacts/inquiries/investigations carried      1
                           forward from previous reporting period

                         Contacts initiated during reporting period     7

                         Contacts closed for lack of verifiable evidence 1
                           or referred to another office

                         Reports issued and/or matters closed           5

                         Management Implication Reports issued          0

                         Matters Remaining Open                         3




                                          12
Inspector General’s Semiannual Report              National Credit Union Administration


OFFICE OF INVESTIGATIONS ACTIVITIES

OPEN INVESTIGATIONS

For most of the reporting period, the OI continued to devote significant time and
resources to a single ongoing investigation based upon a broad array of allegations—both
criminal and administrative—referred to the OIG concerning misconduct on the part of
two senior agency officials. The investigation has been time intensive as well as time
sensitive. The OI has issued the first of two reports on this matter, addressing allegations
of criminal misconduct and violations of the standards of conduct for federal employees.
The report found that no criminal wrongdoing occurred. However, one senior official
was found to have violated standards of ethical conduct. With regard to the second phase
of the investigation, involving administrative allegations of discrimination, preferential
treatment, gross mismanagement, and abuse of authority against the same two senior
officials, the OIG completed its investigation and is in the process of finalizing the
second of two reports.

The OI has two additional cases that remain open: one involving an allegation raised by
a former contractor with NCUA against an agency official; the other involving
allegations of an illegally forced downgrade.

CLOSED INVESTIGATIONS

The OI initiated and, subsequently, closed an investigation based on allegations that an
employee had grossly misused her government contractor- issued credit card. The
investigation determined that the employee had charged in excess of $6,000 in personal
charges over a protracted period of time on the contractor-issued card. The employee
resigned after the OI issued its report.

The OI investigated an allegation that an employee had verbally abused and threatened
another employee. During the course of the investigation, the OIG developed additional
information that the employee had submitted false claims for sick leave and Office of
Worker’s Compensation Program (OWCP) Continuation of Pay (COP) benefits. The OI
issued its report and action against the employee is pending.




                                            13
Inspector General’s Semiannual Report            National Credit Union Administration




          LEGISLATIVE AND REGULATORY REVIEWS

Pursuant to its charge under the IG Act, we continually review proposed legislation and
regulations, as well as proposed agency instructions and other policy guidance, in order
to make recommendations concerning economy and efficiency in the administration of
NCUA programs and operations and the prevention and detection of fraud, waste and
abuse.

During the reporting period, the OIG reviewed 16 items, including one new law, five
proposed regulations, two final rules, one proposed policy instruction, one final policy
instruction, five legislative proposals, and one Office of General Counsel report of its
review of existing regulations. Other items reviewed included extensive comments on
proposed legislation affecting the IG community.




                                          14
Inspector General’s Semiannual Report             National Credit Union Administration



                         OTHER OIG ACTIVITIES
STAFF TRAINING AND DEVELOPMENT


The Inspector General (IG), Frank Thomas continued to participate in the Financial
Institutions Regulatory Committee of the Executive Council on Integrity and Efficiency
(ECIE). The Committee provides a forum for Inspectors General of the NCUA, the
Federal Reserve System, the Department of the Treasury, the FDIC, the Federal Housing
Finance Board, the Securities and Exchange Commission, and the Farm Credit
Administration to: discuss matters of mutual interest; coordinate relevant audits,
investigations, legislative, and regulatory matters; and seek uniform approaches to
handling similar issues.

Assistant IG for Audits, William DeSarno attended the Institute of Internal Auditors
Annual Internal Auditing in Government Conference, and Federal Financial Institutions
Regulatory OIG Council Meetings. Senior Auditors Charles Funderburk and Dwight
Engelrup attended a course on Idea Software. Senior Information Technology Auditor
Tammy Rapp attended a course on Control and Security of Windows 2000, and a seminar
on implementation of the Government Information Security and Reform Act. All
auditors also attended the IIA Annual Internal Auditing Conference.

Assistant IG for Investigations (AIGI), Sharon Separ and Senior Special Agent Anne
Voegele attended training sponsored by the Public Administration Forum, “Issues,
Problems & Solutions for the Federal IG Community.” AIGI Separ also attended the
Association of Directors of Investigations Conference, hosted by the United States Postal
Service Office of Inspector General, in Williamsburg, Virginia. Finally, AIGI Separ
enlisted as a participant on both the PCIE Telecommuting Task Force and the
Semiannual Report Coordinators Meeting.




                                           15
     Inspector General’s Semiannual Report               National Credit Union Administration




                                             TABLE I

                         INSPECTOR GENERAL ISSUED REPORTS
                               WITH QUESTIONED COSTS

                                                       Number of    Questioned       Unsupported
                                                        Reports       Costs             Costs

A.    For which no management decision had
      been made by the start of the reporting             0              $0               $0
      period.

B.    Which were issued during the reporting
      period.                                             0              0                0

      Subtotals (A + B)                                   0              0                0

C.    For which management decision was
      made during the reporting period.                   0              0                0

      (i) Dollar value of disallowed costs                0              0                0

      (ii) Dollar value of costs not disallowed           0              0                0

D.    For which no management decision has
      been made by the end of the reporting               0              0                0
      period.

E.    Reports for which no management
      decision was made within six months of              0              0                0
      issuance.




     Questioned costs are those costs the OIG has questioned because of alleged violations of
     laws, regulations, contracts, or other agreements; findings whic h at the time of the audit
     are not supported by adequate documentation; or the expenditure for the intended purpose
     is unnecessary or unreasonable.

     Unsupported costs (included in "Questioned Costs") are those costs the OIG has
     questioned because of the la ck of adequate documentation at the time of the audit.




                                                  16
Inspector General’s Semiannual Report            National Credit Union Administration



                                      TABLE II

               INSPECTOR GENERAL ISSUED REPORTS
      WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                           Number of          Dollar
                                                            Reports           Value

 A.    For which no management decision had been
       made by the start of the reporting period.               0               $0

 B.    Which were issued during the reporting period.           0               0

       Subtotals (A + B)                                        0               0

 C.    For which management decision was made
       during the reporting period.                             0               0

       (i) Dollar value of recommendations agreed to
       by management.                                          N/A              0

       (ii) Dollar value of recommendations not
       agreed to by management.                                N/A              0

 D.    For which no management decision was made
       by the end of the reporting period.                      0               0

 E.    For which no management decision was made
       within six months of issuance.                           0               0


Recommendations that "Funds to be Put to Better Use" are those OIG recommendations
that funds could be used more efficiently if management took actions to reduce outlays,
de-obligate funds from programs/operations, avoid unnecessary expenditures noted in
pre-award reviews of contracts, or any other specifically identified savings.




                                          17
 Inspector General’s Semiannual Report         National Credit Union Administration



                                    TABLE III

                      SUMMARY OF OIG ACTIVITY
                 OCTOBER 1, 2000 THROUGH MARCH 31, 2001

PART I – AUDIT    REPORTS ISSUED
Report                                                                     Date
N umber            Title                                                   Issued
OIG-01-01          SAP Security and Control Review                         3/15/01
OIG-01-02          Financial Audit: NCUA Operating Fund                    3/31/01
OIG-01-03          Financial Audit: Share Insurance Fund                   3/31/01
OIG-01-04          Financial Audit: Central Liquidity Facility             3/31/01
OIG-01-05          Financial Audit: Community Development Revolving Loan   3/31/01
                   Program


PART II – AUDITS IN PROCESS (as of March 31, 2001)
                Review of Several Issues Related to the Acquisition and Roll-Out of
                Compaq Notebook Computers and Windows 2000
                Government Performance and Results Act: Review of Selected
                Performance Measures
                NCUA Budget Process




                                         18
Inspector General’s Semiannual Report        National Credit Union Administration




                       WE WANT TO HEAR FROM YOU



                 CALL THE OIG HOTLINE




                      TOLL FREE 1-800-778-4806

                      WASHINGTON METRO AREA
                          703-518-6357
       You may call ANONYMOUSLY, or request that YOUR call be kept
                          CONFIDENTIAL




                                        19
